No. 19-866
IN THE SUPREME COURT OF THE UNITED STATES
ALAN SINGER, Petitioner
v.
MONDEX CORPORATION, Respondent
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari contains 2,670 words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this

day of May. 2020.

Alan Singer
4825 Highway 95, Suite 2-120
Fort Mohave, Arizona 86426
(928) 377-4508
E-mail: alansinger7@gmail.com

